OIG Investigative Reports, Former Top District Charter Schools Official Sentenced to Prison for Embezzlement, Kickbacks, and Tax Evasion
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
FOR IMMEDIATE RELEASE:
U.S.
Department of Justice
Thursday
November 29,2007
Jeffrey A. Taylor
United States Attorney
for the District of Columbia
Judiciary Center
555 4th Street, N.W.
Washington, D.C. 20530
For Information Contact Public
Affairs
Channing Phillips (202) 514-6933
Former top District Charter Schools Official Sentenced
to Prison for Embezzlement, Kickbacks, and Tax Evasion
Washington, D.C. — A former top official in the D.C. Public Schools
responsible for charter school oversight, Brenda Belton, was sentenced today
to 35 months of incarceration in connection with her corrupt scheme to embezzle
hundreds of thousands of dollars from D.C. public charter schools serving predominantly
low-income, African-American students, announced U.S. Attorney Jeffrey A. Taylor,
U.S. Department of Education Inspector General John Higgins, Special Agent in
Charge Francis L. Turner, Internal Revenue Service, Criminal Investigation,
District of Columbia Inspector General Charles J. Willoughby, and District of
Columbia Chief Financial Officer Natwar M. Gandhi.
Belton, 61, of Washington, D.C., had pleaded guilty on August 9, 2007, before
U.S. District Judge Ricardo M. Urbina to two felony counts of Theft from a Program
Receiving Federal Funds; one felony count of Federal Tax Evasion; and one felony
count of District of Columbia Tax Evasion. Under the Federal Sentencing Guidelines,
Belton faced a likely sentence of 30 to 37 months in prison. She was sentenced
today at the top of that range: 35 months. Judge Urbina also ordered Belton
to pay $383,910.25 in restitution.
According to the government's statement of facts presented to the Court and
agreed to by the defendant, from between March 2003 through May 2006, Belton
used her position as Executive Director of the District of Columbia School's
Office of Charter School Oversight to divert money belonging to the District
of Columbia, and money coming from the federal "No Child Left Behind" program,
to various bank accounts over which she had control. As part of her scheme,
Belton submitted false and fraudulent invoices to steal more than $200,000 in
public funds, claiming that such funds were for monitoring the quality of D.C.
charter schools.
Belton furthered her scheme by violating contracting rules in awarding seven
no-bid schools contracts worth over $400,000. The primary beneficiaries of those
contracts were Belton's friends; and, in return, Belton received over $180,000
in kickbacks and other fraudulent payments. Finally, Belton willfully evaded
nearly $100,000 in federal taxes between 2002 and 2005 and nearly $30,000 in
District of Columbia taxes in 2004-05.
In announcing the sentence, U.S. Attorney Taylor, District of Columbia Inspector
General Willoughby, U.S. Department of Education Inspector General Higgins,
IRS Special Agent in Charge Turner, and Chief Financial Officer Gandhi commended,
in particular, the hard work, diligence, and professionalism of Special Agent
Derrick L. Franklin, of the U.S. Department of Education Office of Inspector
General; Special Agent Bernadette Todd-Atwater, of the District of Columbia
Office of Inspector General; and Special Agent Troy A. Burrus of the Internal
Revenue Service Criminal Investigation Division; and Edmond Wybaillie, Lead
Investigator, Criminal Investigation Division, D.C. Office of Tax and Revenue.
They also praised Legal Assistants Lisa Robinson and Teesha Tobias in the U.S.
Attorney's Office, former Assistant U.S. Attorney Roy L. Austin, Jr., and Assistant
U.S. Attorney Timothy G. Lynch.
Top
Printable view
Share this page
Last Modified: 12/05/2007
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov